   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




August 30, 2010
	

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Finger Lakes Community & Migrant Health
               (A-02-10-02007)


The attached final report provides the results of our limited scope review of Finger Lakes
Community & Migrant Health. This review is part of an ongoing series of reviews performed by
the Office of Inspector General (OIG) to provide oversight of funds provided by the American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report
number A-02-10-02007 in all correspondence.



Attachment
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





 RESULTS OF LIMITED SCOPE

        REVIEW AT

 FINGER LAKES COMMUNITY

    & MIGRANT HEALTH





                      Daniel R. Levinson

                       Inspector General


                         August 2010

                        A-02-10-02007

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within the U.S. Department
of Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center Program. The HRSA health centers are community-based and
patient-directed organizations that serve populations with limited access to health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

Finger Lakes Community & Migrant Health (Finger Lakes) is a nonprofit health care agency that
provides medical and dental services to residents and migrant agricultural workers throughout
western New York State.

Finger Lakes is funded primarily by patient service revenues and Federal and State grants.
During calendar year 2009, HRSA awarded Recovery Act funds to Finger Lakes totaling
$1,919,091. Of that amount, $485,690 was allocated for the purchase of an electronic medical
records system, related medical and dental equipment, and a video conferencing system. The
remaining $1,433,401 was allocated for increasing the number of patients served by opening a
new health center location and employing additional health care professionals.

OBJECTIVE

Our objective was to assess Finger Lakes’ financial viability, capacity to manage and account for
Federal funds, and capability to operate a health center in accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe Finger Lakes is financially viable and is generally capable
of operating a health center in accordance with Federal regulations. However, we noted certain
weaknesses in its ability to properly account for and manage Federal funds. Specifically, we
noted that Finger Lakes’ accounting system does not properly segregate operating expenses
between Federal and non-Federal programs. We also noted issues related to Finger Lakes’
segregation of duties and procurement practices. Finally, Finger Lakes’ procedures for
whistleblower protection do not fully comply with Recovery Act requirements and its inventory
records do not include all required elements.



                                                i
RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Finger Lakes’ ability to account for and manage Federal
funds and to operate a community health center in accordance with Federal regulations.

FINGER LAKES COMMUNITY & MIGRANT HEALTH COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Finger Lakes generally concurred with our findings and
described its completed and ongoing actions to address the deficiencies we identified. Finger
Lakes also stated that it uses its accounting software to classify its expenses as Federal or non-
Federal expenses and that its quarterly status reports are accurate. Finger Lakes further stated
that it draws down equal amounts of Federal funds each month because its monthly expenses
exceed the amount it draws down. Finger Lakes stated that it will purchase new accounting
software in 2010 and plans to have the software operational in 2011. Finally, Finger Lakes
stated that it follows its procurement procedures and indicated that its purchase of an electronic
medical record system occurred after it established a committee to review various systems.
 Finger Lakes stated that, after the committee decided which system to purchase, it properly
justified the sole-source purchase to the Board of Directors, which voted to approve the
purchase. Finger Lakes’ comments are included in their entirety as the appendix.

During our fieldwork, Finger Lakes did not use its accounting software to class its expenses;
therefore, it could not segregate its Federal and non-Federal expenses or ensure that its quarterly
status reports were accurate. Regarding Finger Lakes’ practice of drawing down equal amounts
of Federal funds on a monthly basis, we maintain that such a practice could result in Fingers
Lakes drawing down Federal funds in its excess of its Federal expenses, a violation of Federal
cost principles for non-profit organizations. If used as described, Finger Lakes’ new accounting
software will allow it to properly segregate Federal and non-Federal expenses. Finally, we
maintain that Finger Lakes did not follow its procurement procedures when it purchased the
electronic medical record system because it did not document that it performed a cost or price
analysis, prepared a written justification for the sole-source purchase, or that the Board of
Directors voted to approve the purchase.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION........................................................................................................................ 1 


          BACKGROUND ............................................................................................................... 1 

              The Health Center Program ................................................................................... 1 

              Finger Lakes Community & Migrant Health......................................................... 1 

              Requirements for Federal Grantees ....................................................................... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2 

               Objective ................................................................................................................ 2 

               Scope...................................................................................................................... 2 

               Methodology.......................................................................................................... 2 


FINDINGS AND RECOMMENDATION................................................................................. 3 


          ACCOUNTING SYSTEM ................................................................................................ 3 


          SEGREGATION OF DUTIES .......................................................................................... 4 


          PROCUREMENT PRACTICES ....................................................................................... 4 


          WHISTLEBLOWER PROCESS....................................................................................... 5 


          INVENTORY RECORDS................................................................................................. 5 


          RECOMMENDATION ..................................................................................................... 5 


          FINGER LAKES COMMUNITY & MIGRANT HEALTH COMMENTS..................... 5 


          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................ 6 


APPENDIX

          FINGER LAKES COMMUNITY & MIGRANT HEALTH COMMENTS




                                                                    iii
                                             INTRODUCTION


BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C. §
254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within the U.S. Department
of Health & Human Services (HHS), the Health Resources and Services Administration (HRSA)
administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations.

Finger Lakes Community & Migrant Health

Finger Lakes Community & Migrant Health (Finger Lakes) is a nonprofit health care agency that
provides medical and dental services to residents and migrant agricultural workers throughout
western New York State. 1

Finger Lakes is funded primarily by patient service revenues and Federal and State grants.
During calendar year (CY) 2009, HRSA awarded Recovery Act funds to Finger Lakes totaling
$1,919,091. Of that amount, $485,690 was allocated for the purchase of an electronic medical
records system, related medical and dental equipment, and a video conferencing system. The
remaining $1,433,401 was allocated for increasing the number of patients served by opening a
new health center location and employing additional health care professionals.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, “Cost Principles for Non-Profit Organizations” (formerly Office of


1Finger Lakes’ corporate name is Finger Lakes Migrant Health Care Project, Inc.; however, it does business as
Finger Lakes Community & Migrant Health.


                                                        1

Management and Budget (OMB) Circular A-122). In addition, 42 U.S.C. § 254(b) defines
requirements for health centers under the Health Center Program.

The Standards for Financial Management Systems found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability of all funds, property, and other assets so that recipients
adequately safeguard all such assets and assure they are used solely for authorized purposes
(§ 74.21(b)(3)). Grantees also must have written procedures for determining the reasonableness,
allocability, and allowability of costs in accordance with the provisions of the applicable Federal
cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. In addition, grantees must establish procedures related
to whistleblower protection. Finally, grantees are required to maintain inventory control
systems.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Finger Lakes’ financial viability, capacity to manage and account for
Federal funds, and capability to operate a health center in accordance with Federal regulations.

Scope

We conducted a limited review of Finger Lakes’ financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of Finger Lakes’ internal control structure. Rather, we performed limited tests and
other auditing procedures on Finger Lakes’ financial management system to assess its ability to
administer federally funded projects.

We performed our fieldwork at Finger Lakes’ administrative office in Penn Yan, New York,
during March 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    obtained Finger Lakes’ HRSA grant application packages and supporting documentation;




                                                  2

    •	 interviewed Finger Lakes personnel to gain an understanding of its accounting system
       and internal controls;

    •	 reviewed Finger Lakes’ financial management procedures related to accounting
       documentation, preparation of financial reports, procurement, drawdown of Federal
       funds, inventory, and other financial matters;

    •	 reviewed Finger Lakes’ independent audit reports and related financial statements for
       CYs 2006 through 2008;

    •	 performed ratio analyses of Finger Lakes’ financial statements; and

    •	 reviewed Finger Lakes’ administrative procedures related to personnel, conflict

       resolution, whistleblower protection, and other non-financial matters.


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATION

Based on our assessment, we believe Finger Lakes is financially viable and is generally capable
of operating a health center in accordance with Federal regulations. However, we noted certain
weaknesses in its ability to properly account for and manage Federal funds. Specifically, Finger
Lakes’ accounting system does not properly segregate operating expenses between Federal and
non-Federal programs. We also noted issues related to Finger Lakes’ segregation of duties and
procurement practices. Finally, Finger Lakes’ procedures for whistleblower protection do not
fully comply with Recovery Act requirements and its inventory records do not include all
required elements.

ACCOUNTING SYSTEM

Pursuant to 45 CFR § 74.21, grantees must maintain financial systems that provide for accurate
and complete reporting of grant-related financial data. Pursuant to 45 CFR § 74.22(b)(2), cash
advances to grant recipients shall be limited to the minimum amounts needed. Pursuant to
2 CFR, pt. 230, App. A, § A(4)(a)(1) (OMB Circular A-122, Att: A, § A.4.a.1), grant expenses
must be incurred specifically for the grant award.

Finger Lakes does not use its accounting software to properly segregate the organization’s
operating expenses (except for Recovery Act equipment purchases) between Federal and non-
Federal programs. 2 As a result, Finger Lakes cannot properly use immediate expenses as the
2
  Recovery Act equipment purchases, consisting of new medical and dental equipment and an electronic medical
records system, were properly accounted for. This was due to the equipment purchases not being considered
operating expenses.


                                                       3

basis for withdrawing funds from the HHS payment management system. Rather, Finger Lakes
withdraws an equal amount of grant funds every two weeks until the funds are exhausted. The
amount drawn down is then recorded as incurred Federal expenditures on quarterly status reports
submitted to the Federal Government. 3 As a result, Federal funds may be used to pay for non-
Federal expenses throughout each quarter and, consequently, quarterly status reports submitted
to the Federal Government may not provide for accurate and complete reporting of grant-related
financial data.

SEGREGATION OF DUTIES

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability of all funds, property, and other assets so that recipients
can adequately safeguard all such assets and assure they are used solely for authorized purposes.

One Finger Lakes employee was responsible for posting journal entries, maintaining control of
unused checks, transferring funds between bank accounts, and reconciling bank statements. For
example, as of December 31, 2009, the employee was responsible for administering
approximately $100,000 in cash. 4

PROCUREMENT PRACTICES

Pursuant to 45 CFR § 74.44, grantees are required to establish written procurement procedures,
which require solicitations for goods and services to provide a clear and accurate description of
the technical requirements for the material, product or service to be procured, requirements
which the bidder/offeror must fulfill and all other factors to be used in evaluating bids or
proposals, and the specific features of “brand name or equal” descriptions that bidders are
required to meet when such items are included in the solicitation. In addition, grantees must
document that every procurement action is supported by some form of cost or price analysis.
Finally, grantees must prepare a written justification for sole-source purchases over $100,000.

Finger Lakes’ written procedures for procurement specified that (1) every procurement action be
supported by some form of cost or price analysis, (2) competitive bids be obtained for purchases
over $25,000, and (3) all purchases requiring a competitive bid be approved by Finger Lakes’
Board of Directors. However, Finger Lakes did not always follow its procedures. Specifically,
Finger Lakes purchased medical equipment, totaling $26,190, and an electronic medical records
system, with an expected final cost of $158,050, without documenting that a cost or price
analysis was performed. Moreover, it did not solicit competitive bids or seek Board approval for
these purchases. Finally, Finger Lakes did not prepare a written justification for the sole-source
purchase of the electronic medical records system. Consequently, Finger Lakes may not have
purchased this equipment in the most economical, practical, and competitive manner.


3
 Finger Lakes submits a Standard Form 269, Financial Status Report and a Health Center Quarterly Report to
HRSA via a secure website, as well as a Recovery Act report via a Federal government website for reporting
Recovery Act funding data.
4
    This amount is based on Finger Lakes’ 2009 unaudited financial statements.


                                                          4

WHISTLEBLOWER PROCESS

Section 1553(a) of the Recovery Act prohibits reprisals against employees of an organization
awarded Recovery Act funds for disclosing to appropriate authorities any credible evidence of
(1) gross mismanagement of an agency contract or grant relating to covered funds; (2) a gross
waste of covered funds; (3) a substantial and specific danger to public health or safety related to
the implementation or use of covered funds; (4) an abuse of authority related to the
implementation or use of covered funds; or (5) a violation of law, rule, or regulation related to an
agency contract (including the competition for or negotiation of a contract) or grant awarded or
issued relating to covered funds. Pursuant to section 1553(e) of the Recovery Act, any employer
receiving covered funds shall post notice of the rights and remedies provided for the protection
of employees under this section.

Finger Lakes established a whistleblower policy detailing how employees can communicate
instances of wrongdoing to Finger Lakes officials. The policy also prohibits reprisals against
whistleblowers. However, the policy does not address the right of a whistleblower to report
wrongdoing to all appropriate authorities.

INVENTORY RECORDS

Pursuant to 45 CFR § 74.34(f), grantees are required to maintain inventory records containing
the following information for equipment acquired with Federal funds: a description of the
equipment, an identification number, its location, acquisition and disposition data, condition of
property, and whether title vests with the grantee or the Federal Government.

Finger Lakes maintains inventory records. However, its inventory records do not include
acquisition or disposition data, condition of the property, or whether title vests with Finger Lakes
or the Federal Government. As of December 31, 2009, Finger Lakes’ equipment was valued at
$830,985, according to its 2009 unaudited financial statements.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing Finger Lakes’ ability to account for and manage Federal
funds and to operate a community health center in accordance with Federal regulations.

FINGER LAKES COMMUNITY & MIGRANT HEALTH COMMENTS

In written comments on our draft report, Finger Lakes generally concurred with our findings and
described its completed and ongoing actions to address the deficiencies we identified. Finger
Lakes also stated that it uses its accounting software to classify its expenses as Federal or non-
Federal expenses and that its quarterly status reports are accurate. Finger Lakes further stated
that it draws down equal amounts of Federal funds each month because its monthly expenses
exceed the amount it draws down. Finger Lakes stated that it will purchase new accounting
software in 2010 and plans to have the software operational in 2011. Finally, Finger Lakes
stated that it follows its procurement procedures and indicated that its purchase of an electronic



                                                 5

medical record system occurred after it established a committee to review various systems.
Finger Lakes stated that, after the committee decided which system to purchase, it properly
justified the sole-source purchase to the Board of Directors, which voted to approve the
purchase. Finger Lakes’ comments are included in their entirety as the appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

During our fieldwork, Finger Lakes did not use its accounting software to class its expenses;
therefore, it could not segregate its Federal and non-Federal expenses or ensure that its quarterly
status reports were accurate. Regarding Finger Lakes’ practice of drawing down equal amounts
of Federal funds on a monthly basis, we maintain that such a practice could result in Fingers
Lakes drawing down Federal funds in its excess of its Federal expenses, a violation of Federal
cost principles for non-profit organizations. If used as described, Finger Lakes’ new accounting
software will allow it to properly segregate Federal and non-Federal expenses. Finally, we
maintain that Finger Lakes did not follow its procurement procedures when it purchased the
electronic medical record system because it did not document that it performed a cost or price
analysis, prepared a written justification for the sole-source purchase, or that the Board of
Directors voted to approve the purchase.




                                                 6

APPENDIX

                                                                                                                                            Page 1 of2


APPENDIX: FINGER LAKES COMMUNITY & MIGRANT HEALTH COMMENTS 





             Lakess Community & Migrant Health
      Finger Lake
     fJr(J.IkJng ~ heoIIrJ oore 00f0.S$1rle Ffiger lakes.



                                                     CommuniiI)' & Migrant Heal1h has I!le blowing responses 10 !he aG a ud~ Ihat
                                         Fmger lakes Commun
                                         was condutled in March 2010
                                                                2010.. The organ
                                                                            organiiza1ioo has made changes as recommended by 1h8
                                         audioo.. Those changes ale dera
                                         audioo                     derailed  below.. Tliere are also responses to some of the
                                                                         iled below
                                         fn!ings
                                         fn!in gs..

                                          Aceoumln
                                          Aceoum      lngg 5)'11..".
                                                           5)'11..".:: Fll'l
                                                                         ll'lger
                                                                             ger LaLakkes wi! be purc1laslng a new accourtlin;l so    softw are package In
                                                                                                                                        ftware
                                          2(ltO IWId plan 10 have ~ ., place and operatiCll         ai by the end of !he 2"1 quartef of 2011. We
                                                                                          operatiCllai
                                          have no! been in the position to implemen  implementt a new financial system in 200S ~ 2OtO to date as
                                         we have a new Practice Management system as of Au9JlSl200S and have just co~led the
    DMo " ,iIOIalco,                     collI'ersion to an Electron
                                                                  lectronic ic Health Record system In May 0( 2OtO   2OtO.. We have /\ad 10 adjusadjustt 10
   14 _           La-a PO ....
                          ....23
                               23
   1'Wv1Vm, U'I 1452
                145211                   those new systems and the Board of Direc10fll felt that the Fillaoce Departmen       Departmentt s/iould wait
   llw.aI-'l I 02 ~                          lil the latter part of 2OtO 10 begin a financial system chomgeover
                                          unlil
                                          un                                                                 chomgeover.. In June 0/ 2009. Fonger
   llw.ai-9103
   llw.ai-9 103 ....
                                          Lakes was the recipient of Technical Assistance from HRSA lor our New Access Point CHC
   0 " , - L.aktoo MIgt<rI_              gl(l11. This topic of purchasing a new act.oo'lting sys                       disoossed,, iJIld Hwas mutual
                                                                                                        systtem was disoossed                    mutuallly
   14 _1.aioO. PO ...
   PoomVm, lit 145   145227
                                 =       agreed by Ih     at team that Fingel Lakes shoukt fInish theinplementatkln of the Practi::e
                                                        Ihat
                                         Management System and EHR before changing finan              financi
                                                                                                            cia
                                                                                                              al systems
                                                                                                                  systems..
   3 15.
     15.(03
         (03 1-'11 02 ~
             1-'1102
   3 16-r.3
      6-r.3J.9
             J.9103
                 103 ....                Currently.. Fltlger Lakes u\j
                                         Currently                         \jile
                                                                              ile''s "OJickbooks-' as toe accoooting so!twso!tw~ ~ . We have foood this

    O _~_
                                         system to be adeqlJate for our needs over !he last 7 years       years.. Th This
                                                                                                                        is system does allow fCll"!he
                                         segregation of federal verses non federal expenses. Fnger La                La~~ es uses the class system
   66112           _        !UI& 21 00
           ~
                                         feature i1 QB 10 designate aI expenses                     mon8l,, we al8 aIJIe 10 post amexpenses
                                                                                 expenses.. Each mon8l
   POb276
   SoQa, HI 14561                        i1ductin
                                         i1duct   in9
                                                    9 payrolt
                                                      payrolt.. l1OI'\iIE!rsctIal expenses
                                                                                    expenses,, depredaron
                                                                                               depredaron,, etc 10 the program and then pull ootthe
   ll ~ ·II9'lpI"ITe                     aPSll'Ofll'late reports neo&SsafY for each of 001 mMy gl(l1      gl(l1tt programs
                                                                                                                  programs.. We are required to trid!;
   31~·2 46 1""
                                         aUof our expenses lor several New YOlk State Depar1me      Depar1men    nl of Hea
                                                                                                                       Hea::th gIants as wei as !he
    O _ _ ~_""                                      P!Qgfa'IIS,, Fonger lakes offICials dkI root ackIIOwIedge tha
                                         federal P!Qgfa'IIS                                                                  federral Mds may be lISed to
                                                                                                                       thatt fede
   eo l l~ _                             pay for I"I4:lIHaderal expenses                                                a:.xurate.. We have chosen to
                                                                   expenses.. The qual1e!1y staus f8:IX)f1s are a:.xurate
   ........... 1111
               11114456
                    4456 
               withdraw equal amounts each month from 00             0011fedel'aj funding as oo  oorr expenses each monlh for
   3 1 S.71 1 ~ "1~
   315-II SI.,e.o
   315-   SI.,e.o......
                  ......                 those programs exceed the amoun       amountt we draw down from Ihe Payment Managemenl Sys             Syslle m.


                                         Segttgation of dut   utiQ:
                                                                iQ: Fonge      Lates'' has rna:te 2 changes In Ile segrega
                                                                       Fongerr Lates                                  segregatitioo
                                                                                                                                  oo of duties based
                                         on toe recommeodations of the OIG audilors. The unused checks have been moved from the
                                         Fflanciall Adrrinistralof's office and ~ hou
                                         Fflancia                                          sed 10 a separate
                                                                                       housed       separate,, appropriate and secursecuree area
                                                                                                                                            area..
                                         The bank statements '" now reoonciled by an ildependent f.nan         .nanci
                                                                                                                    cial
                                                                                                                      al consu
                                                                                                                         consutlan
                                                                                                                                tlantt who WOIks with
                                         Ff1g9f Lakes on a mon mon'to/y
                                                                    'to/y basis
                                                                          basis..
                                         Ftngef Lakes has e>tperienced a very substantial amoun   amountt of growth In dle last couple of years
                                                                                                                                              years..
                                         due to the lack of serYiees ., tile Finger Lakes region
                                                                                              region,, as we
                                                                                                           weii as the mi ssion 0/ Ihe organization
                                                                                                                       mission
                                                          communities.. This growth has been cmety monitored
                                         \0 S6I'I8 IUral communities                                        monitored.. The Boalll 01 Direc1on
                                                                                                                                          Direc1on,,
                                         and nml lmportan1ly
                                                      mportan1ly,, the FIn ance Committee of dle Board /\as been woOOng with lie FltlantIl
                                                                        FInance
                                         stall'lO continue 10 delineate !he segregaliorl of duUes as we have grown   grown,, In the OIG report it
                                         is stated that on
                                                         onee Fongel Lakes employee h~ control 01 transferring funds between bank
                                         81XXlO.\1ts, ., ~tion 10 other fin<Jlcial duties. Thai employee did transfe ransfell furods between bank
                                         81XXlO.\11s 10 make supervisor approved payments on the line of credit. This pefSOI'I ,ojas /lOI
   O _DonIaICenIw                        able to traIlSlar any f1.wlds from IhfI online bank iJCCC'Jnts \1:1 any alher lICCQUIt AI tansac1ions
   13 SOtoo<:o_
   ~ U'I 1 ~ 7
                                         that otClI' 10 move funds to pay down our lin   line    crediit are authorire:l by Ihe CEO.
                                                                                            e of cred
   601 · 2 .HOIQ ~
   <I07
   <I0 7·243
          43·· 7l)56 ....
                                                                                                                         Page 2 of2




Procurement Pr
Procureme           ICtictl: FIOgeI" Lakes does follow Its own policies fOf ptOCUremen
                  PrICtictl:                                                ptOCUrementt 01goods
                                                                                             goods.. 'NtIen
Anger Lakes made !he decision to seek the best EHR sys    systtem for the practice
                                                                          practice,, a commiltee was
establiished to review vario
establ                        us systems and decKle which 'tYOU1d work for ou
                         various                                            ourr purposes
                                                                                 purposes.. After looking al3
distinct systems
         systems,, the decision was made to purchase ECtinical Woos (ECW) (ECW).. This EHR system is a
             item.. Finger Lakes was nol able to gel 3 bids on this system as only lhe company thai makes
propriettary item
proprie
  CW,, sells it. The Board of Director's did diSCtJss and make the final decision to purchase the EHR
ECW
system.. The soI
system           soIe
                    e-soorce purchase of EC
                                          ECWWquole was givan to the Bo    ard of Directors to review
                                                                        Board                  review,, and the
Board voted to approve lhe purchase, and signed off 00 the checks that paid for the system. The fa      failure
                                                                                                          ilure to
properly document the vote in the minutes of th the
                                                  e Board of Director meeting was acknowledged by 2 Board
                        auditors.. The Board of Directo~s has made a change 11 how its business is
members to the OIG auditors
documen
 ocumentedted .



Whlltleb!Owtr ProcHI : Finger Lakes has made one change on the Whls6eblower PoHcy                 PoHcy.. Finger Lakes
does have an adeq adequuate whislleblower pol
                                            polic
                                               icyy in its personnel policies tha
                                                                              thatt is given to every employee
annu
an    ally. The OIG aud
   nually.             audiitors tok1 Fing
                                       ingeer Lakes that what was lacking on the whistleblower poticy was a
federal contact num umber
                       ber foremployees to reference in add   addition        contactt Information thai was already
                                                                 ition to the contac
on ou
    ourr policy
         policy.. A federal authority co ntact has been added to the Finger Lakes Wh
                                       contact                                            Whiistleblower policy
                                                                                                          policy..

Inventory
In ventory RIC ard.:: FlflQer Lakes has made a change on ~s inventory system
             ICard.                                                   system.. We have added the
information recommended by the OIG auditors.



Sincerely,
Sincerely,

M¥y Zel
     elazn
        aznyy, CEO
